<html>
<title> - HUMAN RIGHTS IN NORTH KOREA: CHALLENGES AND OPPORTUNITIES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
       HUMAN RIGHTS IN NORTH KOREA: CHALLENGES AND OPPORTUNITIES

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 20, 2011

                               __________

                           Serial No. 112-104

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
68-443                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e285928da2819791968a878e92cc818d8fcc">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Suzanne Scholte, president, Defense Forum Foundation.........     4
Ms. Kim Young Soon, vice president, Committee for the 
  Democratization of North Korea.................................    13
Ms. Kim Hye Sook, longest-serving survivor of North Korean prison 
  camps..........................................................    20
Mr. Greg Scarlatoiu, executive director, Committee for Human 
  Rights in North Korea..........................................    27

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Suzanne Scholte: Prepared statement..........................     8
Ms. Kim Young Soon: Prepared statement...........................    16
Ms. Kim Hye Sook: Prepared statement.............................    23
Mr. Greg Scarlatoiu: Prepared statement..........................    29

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, and Human Rights: Statement of Mr. Kim 
  Seong Min, Director of Free North Korea Radio..................    54


       HUMAN RIGHTS IN NORTH KOREA: CHALLENGES AND OPPORTUNITIES

                              ----------                              


                      TUESDAY, SEPTEMBER 20, 2011

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3 o'clock 
p.m., in room 2172, Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. And good 
afternoon to everybody. I want to thank you for joining us for 
this very important hearing to examine a country with one of 
the worst human rights records in the entire world. The 
Democratic People's Republic of Korea is known to be the 
world's most isolated country as its citizens are prohibited 
from traveling either internally or internationally without 
express permission. Communications with the outside world are 
also tightly regulated in attempts by the dictatorship to 
filter all information accessible by the North Korean people.
    Therefore, the testimony to be provided today by our 
distinguished panel, and in particular our two defector 
witnesses, is particularly welcomed and appreciated. Mrs. Kim 
Young Soon and Mrs. Kim Hye Sook, who both have survived the 
extreme deprivations of the North Korean prison camps, have 
traveled all the way from South Korea to share their 
experiences with our subcommittee. On behalf of the 
subcommittee, I want to thank them and convey to them our 
sincerest gratitude.
    I also want to thank Suzanne Scholte for her extraordinary 
work over these many years. I have chaired several hearings on 
North Korean human rights, and in every one of those hearings 
she has played a critical part in helping us to get witnesses 
who tell the true unvarnished story of what is actually 
happening in North Korea. Our two witnesses will tell the story 
and they will be speaking on behalf of an estimated 150,000 to 
200,000 prisoners currently held in North Korean labor camps.
    It is our hope that their testimony will help to galvanize 
the international community to take action to secure the 
freedom of those who are needlessly suffering and dying under 
truly horrific conditions. Those living in the prison camps are 
not the only ones suffering in North Korea. As one of our 
witnesses--again, Suzanne Scholte--will testify, in North Korea 
every single human right enshrined in the Universal Declaration 
on Human Rights is violated and it is often violated with 
absolute impunity.
    North Korea is listed by the State Department as a Tier III 
country with respect to human trafficking. In other words, they 
are egregious violators of modern-day slavery, buying and 
selling women and others as a commodity.
    North Korea was also just designated this month as one of 
eight Countries of Particular Concern for its violations of 
religious freedom.
    But not all the testimony during this hearing will be 
bleak, although much of it will be. We will hear about the new 
potential for communication to and with the North Korean people 
and explore possibilities for peaceful change given upcoming 
political events in North Korea and changes in other countries 
in the region. We look forward to discussing this potential to 
improve the lives of all people living in North Korea.
    I would like to now introduce our very distinguished panel 
and again thank all of you for being here today. I also want to 
thank C-SPAN for being here, for taking this information and 
conveying it to the American people. North Korea, because it is 
so closed, very often evades all scrutiny, so people know about 
it but don't know very much. Your testimony, again, will help 
to shatter that lackadaisical sense of what Americans know and 
think about North Korea, so thank you again.
    We will begin with Ms. Suzanne Scholte who is the president 
of the Defense Forum Foundation and is a leader of several 
groups focused on protecting human rights in North Korea. She 
was recognized in 2010 with the Walter Judd Freedom Award, and 
in 2008 with the Seoul Peace Prize. Ms. Scholte has helped 
rescue hundreds of North Korean refugees and facilitated the 
travel of defectors to speak in the United States. She has 
participated in numerous congressional hearings on North Korea 
on a wide range of topics, including political prison camps, 
trafficking of North Korean women, religious persecution, and 
North Korean refugees in China.
    I would note parenthetically that when we held a hearing on 
trafficked women, some of the--what they thought were lucky 
women who got out of North Korea into China--Ms. Scholte 
actually brought to this committee women who--one woman who 
went after her daughter, who made her way into China only to be 
sold into slavery, and then she and her daughter who went 
looking to rescue the trafficked women were themselves sold 
into sexual slavery.
    We will then hear from Ms. Kim Young Soon, Committee for 
the Democratization of North Korea, and she was a dancer and an 
actress in the North Korean Army. She was arrested in 1970 and 
sent to the Yoduk political prison camp with members of her 
family. Her parents and eldest son died in the camp, and her 
husband and youngest son later died trying to escape North 
Korea. Ms. Kim eventually escaped and has dedicated her life to 
exposing the truth about the hideous prison camps in North 
Korea by sharing her story around the globe. She is an 
outspoken defector, serving as the vice president of the 
Committee for the Democratization of North Korea and other 
human rights advocacy groups.
    We will then hear from Ms. Kim Hye Sook, who is a survivor 
of nearly three decades in Bukchang political prison camp. She 
and her family were imprisoned for ``guilt by association'' 
because of her grandfather's defection to South Korea. She was 
just 13 years old. Ms. Kim regularly witnessed executions and 
abuse and endured manual labor, constant hunger, and the deaths 
of several family members. Once released, she fled to China but 
was forced to return to North Korea by her employer, where she 
was arrested again. When she escaped she returned to China but 
was sold by human traffickers, again like the other witnesses 
we have had before this committee.
    She eventually escaped to South Korea and continues to tell 
her story around the world. Earlier this year she published her 
memoirs in a book entitled, ``A Concentration Camp Retold in 
Tears.''
    We will then hear from Mr. Greg Scarlatoiu, Committee for 
Human Rights in North Korea. Mr. Scarlatoiu is the executive 
director of the Committee for Human Rights in North Korea, 
which was established to focus world attention on human rights 
abuses in North Korea and to offer creative solutions. Born and 
raised in Romania, he was a Bucharest University freshman when 
he witnessed the fall of Communism in eastern Europe, Nicolae 
Ceausescu's barbaric regime.
    He lived in South Korea for 10 years and has authored 
English and Korean language articles on the applicability of 
the eastern European experience to North Korea context, as well 
as a weekly Korean language broadcast into North Korea by Radio 
Free Asia, and we welcome him as well.
    I would like to now yield to my friend and colleague Mr. 
Payne for any opening comments he might have.
    Mr. Payne. Thank you very much, Mr. Chairman, for calling 
this very important hearing. And I would like to certainly 
express my appreciation to the witnesses here who have agreed 
to testify. Each of your stories help us to better understand 
the extent and magnitude of the human rights abuses of North 
Korea, and your guidance will help us to target our efforts in 
alleviating some of these terrible injustices.
    Human rights violations in North Korea are among the worst 
in the world. Under Kim Jong Il's regime, North Korean citizens 
regularly face extra judiciary killings and detentions for 
basic political expressions, seemingly ordinary market 
activities, or unauthorized domestic travel. North Korea 
doesn't seem to even need to violate the regime's rules 
themselves, since they can be penalized for even the actions 
not of themselves but actually of their families, which is 
certainly unfair and unjust.
    While many of us cannot imagine a more stifling human 
rights environment, according to some observers, the conditions 
are worsening due to the preparation for Jong Il's son, Kim 
Jong Un, to take over.
    In 2004 Congress passed a North Korean Human Rights Act 
authorizing funds toward human rights efforts and improving the 
flow of information to North Korea. Currently this amounts to 
$2 million annually for human rights and democracy, $2 million 
for freedom of information programs and $20 million to assist 
North Korean refugees. I am interested in hearing from the 
panelists who have expertise in that area about their views on 
how proposed cuts to our international affairs budget would 
impact on our ability to adequately continue to fund these 
programs that have been successful in getting information to 
date.
    Although it is not in the realm of your testimony 
necessarily, I was very disturbed at the behavior of the North 
Korean leadership in November 2010 when it attacked South 
Korea's island of Yeonpyeong with artillery shells, killing 
several people. This irresponsible behavior of government 
really is unwarranted and really needs to have continued 
watching and scrutinizing as to their behavior. Also their 
continued adventurism into ballistic missiles and other weapons 
of war certainly disturb us.
    So I certainly look forward to your testimonies, and thank 
you again for your willingness to share them. And I yield back 
the balance of my time.
    Mr. Smith. Thank you very much.
    Would either of my other colleagues like to--no.
    I would like to now then yield the floor for such time as 
she may consume to Ms. Scholte. Let me, before you start, make 
a point. We also invited Ambassador-at-Large King, who could 
not be here because he is out of the country. He wanted to be 
here, and said very clearly he would gladly come and testify at 
a later date. And he also wanted to provide the testimony with 
a closed briefing as well on recent events, including the human 
rights situation in North Korea.
    Bob King, as my colleagues know so well, especially Mr. 
Payne, was the chief of staff for the Foreign Affairs Committee 
and very good choice for Ambassador, so we look forward to 
hearing from him as well. So, Ms. Scholte.

  STATEMENT OF MS. SUZANNE SCHOLTE, PRESIDENT, DEFENSE FORUM 
                           FOUNDATION

    Ms. Scholte. Well, first of all, I just want to thank 
Congressman Smith for your many years of devotion on the North 
Korea human rights issues. And I want to thank Congressman 
Payne as well. It has been an honor and pleasure to work with 
your staff on our shared love for the Sahrawi people of Western 
Sahara, another divided country that is trying to get their 
freedom through self-determination.
    I want to give two main points at this hearing today. First 
of all, North Korea continues to be one of the darkest places 
on earth, yet we fail to focus on the main issue, which is the 
human rights issues, because we have instead focused on the 
nuclear issue, and this has had tragic results.
    Second, despite this ongoing tragedy, there is hope because 
of changes that are happening in that country. But if we fail 
to enact the policies that address the human rights conditions 
and empower those who can bring about change, then we will 
certainly end up just prolonging this regime.
    While we witness people rising up in North Africa, in the 
Middle East, we wonder why do North Koreans, who are arguably 
the most persecuted people in the world, not rise up? It is 
precisely because they are the most persecuted in the world. 
North Koreans are the only people in the world that do not 
enjoy one single human right that is enshrined in the Universal 
Declaration of Human Rights, a document, ironically, that was 
adopted in 1948, the same year that Kim Il Sung came to power. 
This declaration was in response to the atrocities committed by 
the Axis powers during World War II.
    When the Nazi death camps were liberated by the Allied 
Forces during that war, the international community vowed never 
again, never again would we allow these kinds of atrocities to 
occur. But the political prison camps in North Korea have 
existed longer than the Soviet gulag, longer than the Chinese 
Laogai, and longer than the Nazi death camps.
    Your two defector witnesses today are living proof of the 
horrors of these camps, as well as the length of their 
existence. One was imprisoned in Yoduk in the 1970s, while 
another was imprisoned for 28 years, up through the beginning 
of this decade, in Bukchang. We have seen millions of North 
Koreans starve to death despite billions of economic 
assistance.
    And North Koreans are not the only ones who suffer from Kim 
Jong Il's dictatorship. But South Korean POWs are still being 
held in North Korea today, while at least 108,308 captives are 
being held in North Korea, including 80,000 abductees from 
South Korea and hundreds of others from 13 countries, as 
recently documented by the Committee for Human Rights in North 
Korea.
    Former Presidents Bill Clinton and George Bush made human 
rights a secondary issue, with the hope of engaging North Korea 
to give up their nuclear ambitions. We see the failure of these 
efforts as North Korea has realized its nuclear ambitions and 
its proliferation activity continues. Kim Jong Il may be an 
evil dictator, but he has brilliantly manipulated the good 
intentions of both America and South Korea.
    My second point: There is hope because things are changing 
in North Korea. Despite Kim Jong Il's best efforts to literally 
keep North Koreans in the dark, up to 60 percent of North 
Koreans have access to some form of information beyond the 
regime's propaganda. They are increasingly learning that the 
source of their misery is not America or South Korea, as they 
are brainwashed from childhood to believe, but the source of 
their misery is in fact Kim Jong Il and his regime.
    North Korean defectors are sending remittances to their 
families, helping demonstrate the prosperity in South Korea. 
North Korea now has a cell phone system with well over 500,000 
subscribers. And although you cannot call directly from South 
Korea, defectors pay brokers in China to contact their 
families.
    We also see the defectors themselves getting information 
into North Korea from DVDs, VCDs, USBs and flash drives through 
China and other creative means such as balloon launches. North 
Koreans, especially the elites, are keeping up with South 
Korean soap operas and watching many South Korean, as well, as 
western films. Therefore, it is more important than ever to 
raise the human rights concerns so that they know our concerns 
are for them.
    For example, it was a brilliant action by the Obama 
administration to include Special Envoy for North Korea Human 
Rights Ambassador King in the delegation that went to North 
Korea to assess the food situation. This underscored the fact 
that it is the human rights conditions in North Korea that are 
causing the starvation. Furthermore, North Koreans are no 
longer dependent on Kim Jong Il's regime to survive, as over 
200 private markets are functioning and the regime has given up 
trying to control them. This capitalism is saving them from 
experiencing the same level of starvation that led to the 
deaths of millions during the famine.
    Kim Jong Il's unprovoked attacks on South Korea, as 
Congressman Payne just mentioned, have awakened South Koreans 
to the truth that we must not ignore the human rights of North 
Koreans for the false promise of this regime to end its nuclear 
program.
    To take advantage of these changes, governments, 
nongovernmental organizations, and individuals first of all 
should make human rights central to all negotiations with or 
about North Korea.
    Second, we should only provide food when relief 
organizations can stay and monitor it to the point of 
consumption; otherwise it will most assuredly be diverted to 
maintain the regime that is causing the starvation in the first 
place.
    Third, we need to continue to support radio broadcasting, 
especially programs like Radio Free Asia and Voice of America 
and the independent radio broadcasters like Free North Korea 
Radio, a defector-led station in Seoul.
    Fourth, we need to empower the defector organizations that 
are using creative methods to get information into North Korea, 
like Fighters for a Free North Korea and the North Korea 
People's Liberation Front.
    Five, we must convince the Chinese to end their brutal 
policy of forced repatriation for North Korean refugees, which 
is prolonging this crisis by giving Kim Jong Il a reason to 
resist any reforms that would improve the situation in that 
country so that North Koreans do not want to risk their lives 
trying to flee.
    Six, we should support the 12 North Korean defector 
churches. For example, I have been working to try to connect 
churches here in the United States with these defector churches 
that have been formed in South Korea.
    Seven, we need to put the elites in this regime on notice 
that they will be held accountable for their crimes against the 
North Korean people.
    Last week, a North Korean assassin was caught. His mission 
was to kill Park Sang Hak who heads Fires for a Free North 
Korea. Park Sang Hak is the one that has been doing the balloon 
launches sending in information. Both Park and Kim Seung Min, 
who leads Free North Korea Radio, who is here at this hearing, 
have been regularly targeted by assassins sent by Kim Jong Il. 
What this tells us is that what they are doing is the most 
effective work.
    At the end of 2009, Free North Korea Radio started 
broadcasting Voices from the People. These were actual 
interviews from inside the country that they broadcast back in. 
Supporting this flow of information through radio broadcasting, 
especially by North Korean defectors, is the most effective way 
to reach the people because the Internet is only available to 
the elites in the regime.
    Recently, the North Korea People's Liberation Front was 
formed by former North Korean military, including officers, 
special forces, cyber warfare experts, and propaganda 
specialists. This is significant because the only time there 
was organized opposition against the regime was from the 
military who had studied in the Soviet Union and came back to 
North Korea wanting reform. Although they were eventually 
discovered, they operated against the regime from 1989 until 
1994. Because all North Korean males must serve for 10 years 
and the elites are exempt from service, this means that the 
North Korean military truly represents the people.
    We saw the Army in Romania turn against Kim Il Sung and Kim 
Jong Il's good friend Nicholae Ceausescu when the people of 
that country rose up against their dictator. Right now, the 
elites in power have absolutely no incentive to oppose Kim Jong 
Il because their entire lives are based on the successful 
transfer of power to Kim Jong Un. We must assure them that they 
would have a stake in the future if North Korea opens up to 
reform.
    Because North Koreans are citizens under South Korea, under 
the Korean Constitution, South Korea has an important role to 
play, and they should convene a tribunal of respected judges to 
begin the prosecution of those in the regime responsible for 
the political prison camps and these other atrocities.
    There are 23,000 eyewitnesses now, and we should start 
naming the names of those who are committing these crimes. When 
North Korea finally opens up, I believe we will be even more 
horrified at the atrocities that the Kim regimes have committed 
against the North Korean people that today are beyond our 
imagination. We will face the same questions that the world 
faced when the allies liberated the Nazi death camps: What did 
you know and what did you do to help stop our tragic 
circumstances?
    Thank you, Mr. Chairman.
    Mr. Smith. Ms. Scholte, thank you very much for your 
testimony and for your leadership all these years, and for that 
very incisive testimony.
    [The prepared statement of Ms. Suzanne Scholte follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. We will now hear from Ms. Kim Young Soon.

STATEMENT OF MS. KIM YOUNG SOON, VICE PRESIDENT, COMMITTEE FOR 
               THE DEMOCRATIZATION OF NORTH KOREA

    Ms. Kim Young Soon. Hello. My name is Kim Young Soon, 
author of I was a Friend of Sung Hae Rim. I am a North Korean 
defector and a survivor of North Korean political prison camp, 
Yoduk, camp number 15. First of all, I want to thank the 
Members of the United States Congress and related officials of 
the Congress for giving me a chance to speak at this important 
venue. I also would like to thank Ms. Suzanne Scholte of the 
Defense Forum Foundation for her years of friendship and for 
listening to my story of the North Korean political prison camp 
experience.
    Camp number 15 Yoduk where I was incarcerated is now well 
known throughout the world. Yoduk political prison camp was 
created in July 1969 under orders of Kim Il Sung in Yoduk-gun 
in South Hamkyung Province in a region known for its rough and 
mountainous features. It is here that for 30 years people who 
have incurred the wrath of Kim Il Sung and Kim Jong Il have 
been sent for the crime of being a political prisoner and where 
they have died silent deaths.
    I wrote of my time at Yoduk into a book entitled I Was a 
Friend of Sung Hae Rim. Sung Hae Rim was at one point in my 
life my friend and also the hidden mistress of Kim Jong Il, and 
anyone who knew the secret in North Korea were either executed 
or sent to political prison camps. I became a victim of this 
myself and was therefore sent to Yoduk. I want to tell the 
world about what happened to me and also tell the world about 
the reality of the North Korean political prison camp system.
    The Worker's Party's establishment of the One Thought 
Principle was instituted whereby the citizens were sent to 
prison camps for total isolation from the general public--
general society for the following crimes: The crime of defaming 
the authority and prestige of Kim Il Sung and Kim Jong Il; the 
crime of knowledge about the private life of Kim Jong Il and 
leaking information about it to the general public, thus 
defaming the prestige of the great leader.
    When I was sent to the prison camp I had no knowledge about 
these facts. The following are the political crimes that I came 
to know of after I was incarcerated in the Yoduk prison camp: 
The crime of talking about the cyst or lump on Kim Il Sung's 
neck; or the crime of unwittingly damaging or soiling the 
statue or portrait of Kim Il Sung; the crime of knowing about 
the private life of Kim Jong Il, for example, knowing about 
Sung Hae Rim being the secret mistress of Kim Jong Il and 
disclosing this information to an outsider; the crime of 
revealing the birth of Kim Jong Nam, the firstborn son of Kim 
Jong Il; the crime of listening to or viewing foreign radio or 
TV broadcast; the crime of questioning or criticizing the 
policy of the Worker's Party; and the crime of expressing 
criticism or complaints about North Korean society.
    I was a close friend--I was close friends with Sung Hae 
Rim, having gone to the same school with her from girl's high 
school to college, and one day I heard directly from her that 
she will be going to Special Residence number five. At that 
time, those in the know knew that Special Residence number five 
meant the residence of Kim Il Sung and Kim Jong Il. However, at 
the time I was taken to the political prison camp, I had no 
idea why I was being incarcerated. And it was only in the 
summer of 1989, after I was released, did I find out the reason 
why from a state security agent in Pyongyang.
    The security agent said the following to me: ``Sung Hae Rim 
was not the wife of Kim Jong Il nor did she bear him a son. 
These are all groundless rumors. If you mention anything about 
this again you will not be forgiven.''
    I would like to talk briefly about my interrogation before 
I was sent to the political prison camp. On August 1, 1970, I 
was forced into a car by state security agents and taken to a 
secret location where I was interrogated for 2 months by a unit 
called Unit 312 for preliminary investigation in a state 
security investigation room. Under extreme fear for 2 months, I 
was told to write my entire life story and to include 
everything and leave out nothing, so I wrote on and on.
    In my writing I confessed and wrote about Sung Hae Rim 
coming over to my house and telling me that she would be going 
to Special Residence number five, and also admitted that people 
around me knew this information as well. After the 
investigations were over on October 1, 1970, my entire family 
and I, seven people in total, were sent to Yoduk political 
prison camp. The person who committed the crime was labeled the 
conspirator or ring leader, while those taken along for yeon-
jwa-jweh, a Korean word for guilt by association, were labeled 
nonprincipal criminals, and this was how the criminals in the 
prison camp were classified. We woke up at 3:30 in the morning 
to go to work by 4:30 a.m. And the labor was from sun-up until 
sun-down. Meals had to be provided by ourselves through self-
sufficiency. I saw countless prisoners contract the disease 
pellagra and suffer from diarrhea and die.
    After work was finished there were daily Fight for Ideology 
meetings for all the prisoners. Those who were unfortunate 
enough to be caught by security agents during these ideology 
meetings and sent away in shackles were never seen again.
    The forced manual labor was beyond anyone's imagination, 
and in case of falling short of work goals, the whole group was 
punished. There were so many dead bodies that I saw there, 
enough to fill up a field. My three sons, one daughter, father 
and mother, died from starvation. There were no coffins so 
their bodies were rolled in a straw mat and buried. One of my 
sons, who was 9 years old at the time, drowned to death in 
Ryongyung River which is near the prison camp. My daughter was 
given away for adoption after our release so that she can have 
a better life. To this day I do not know about her whereabouts, 
whether she is alive or dead. My youngest son was publicly 
executed by a firing squad for trying to escape North Korea 
after his release and attempting to go to South Korea in 1993 
at the age of 23. My husband was sent to another political 
prison camp, a total and complete control zone, on July 4, 
1970, and to this day I do not know whether he is dead or 
alive.
    So from my original family of eight people, currently only 
two have survived and successfully escaped from North Korea--
myself and another son. The rest of my family, six people, have 
all died.
    My older brother, who was the pillar of our family, was a 
colonel in the North Korean Army during the North Korea War, 
serving the North Korean 3rd Infantry, and while on a mission 
for the division commander, he was killed in battle at the age 
of 25. Accordingly, our family received favors for my brother's 
heroic acts from Kim Il Sung and we lived well until our family 
was sent to a political prison camp. And as a result of feeling 
betrayed, I escaped from North Korea. Even after I was released 
from Yoduk political prison camp, I was classified as an anti-
regime reactionary and suffered under the monitoring by the 
state security apparatus. I escaped North Korea on February 1, 
2001, and entered South Korea in November 2003.
    In conclusion, I would just like to say that in the 
political prison camps in North Korea, it is a place where the 
prisoners will eat anything that flies, crawls, or grows in the 
field. I wasted 9 years of the prime of my life in that 
hellhole of a place where even animals turn their faces away. I 
lost all my family members and have lived a life of tears, of 
blood, and extreme hardship.
    Please save the 23 million people in North Korea who are 
living a life of misery not unlike what I had suffered. Even 
though I am now over 70 years old, I will fight for the freedom 
of my people, my countrymen, until all my strength is expended. 
This is the reason why I have lived so far and I believe also 
my purpose.
    On that note I want to deeply thank, again, the members of 
this committee for your interest in the human rights situation 
of North Korea, especially the political prison camps. Thank 
you.
    Mr. Smith. Ms. Kim, thank you so much. The brutality that 
you yourself have suffered and the loss of your family members, 
including a daughter who, as you said was adopted obviously 
without your permission, you have no idea where she is, your 
husband you have no idea where he is and the loss of your other 
family members, just underscores the brutality of Kim Jong Il; 
and the fact that the West, the United States and any country 
that has any sense of compassion, needs to speak out against 
this horrific abuse. And this should not be a second-tier 
issue, the human rights abuses that are commonplace in North 
Korea. So we thank you for making us further aware of the 
extreme barbarity you have been made to endure and your family.
    [The prepared statement of Ms. Kim Young Soon follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. We will now hear from another Ms. Kim who has 
suffered three decades in the gulag and we look forward to 
hearing her testimony.

  STATEMENT OF MS. KIM HYE SOOK, LONGEST-SERVING SURVIVOR OF 
                   NORTH KOREAN PRISON CAMPS

    Ms. Kim Hye Sook [through interpreter]. Hello, my name is 
Kim Hye Sook. I am a North Korean defector who was incarcerated 
in political prison camp number 18, Bukchang prison camp, in 
Bukchang-gun South Pyongang Province for 28 years, and in 2009 
I escaped North Korea and entered South Korea via China, Laos, 
and Thailand.
    In February 1975 for reasons that were unknown to me at 
that time, I was dragged with my parents to the prison camp. I 
was 13 years old at the time. During my incarceration at camp 
number 18 I lost my grandmother, mother, brother and my 
husband. I only found out after I was out of that hell-on-earth 
camp number 18 why I was sent to the prison camp: Because my 
grandfather had defected South Korea during the Korean War. But 
by then I had nowhere to go and complain about this situation.
    I would like to say that the term ``kwan-li-so'' in North 
Korea is a living hell for human beings, a place where people 
who have committed so-called crimes are sent and incarcerated 
as a group and forced to work in manual slave labor. There are 
political prison camps where people who have been found guilty 
of being against Kim Il Sung and Kim Jong Il or those resisting 
the regime are sent and held; whereas in places like camp 
number 18 where I was incarcerated in, besides political 
prisoners, those who are guilty of economic crimes are sent 
along with family members and are forced to work in coal mines.
    In camp number 18 in Bukchang where I was imprisoned, the 
whole prison camp was encircled by high electrified fence, and 
trying to escape through this over 3,000 volts of electrified 
fence was unimaginable.
    When I first entered the prison camp we were told to 
memorize ten rules of the prison camp. And I remember it 
vividly because I remembered them from such an early age. One 
of the rules was that the prisoners were not supposed to know 
the reason for ending up in the prison camp, and those found 
violating this rule will be relentlessly executed by a firing 
squad. For young people like me, who ended up in the prison 
camp at a young age, we were given very rudimentary education, 
basic Korean language education, and then when we turned 16 or 
17, everyone without exception was sent to the coal mines to 
dig out coal, and this goes without saying for the adults as 
well.
    We had to work 16-18 hour work days without rest or 
holidays. And for food, our family of seven was provided only 
around ten pounds of corn per month. And this was supplemented 
by gruel made from grass or anything that we picked from the 
field, tree bark, grass, and that is what we ate, one meal a 
day, corn and the mixed grass gruel that we had to make for 
ourselves.
    Mr. Smith. Ms. Kim, if you could just suspend for one brief 
moment. We are joined by the chairman of the Appropriations 
Subcommittee that deals with justice issues and science, but is 
also the author of the International Religious Freedom Act of 
1998. As we all know, North Korea is a Tier III trafficking 
country. It is Congressman Frank Wolf who cares deeply about 
human rights, but he can only stay a brief minute.
    Mr. Wolf. Thank you, Mr. Smith. I want to thank you and Mr. 
Payne and the committee for having this hearing. I met with the 
witnesses earlier today. It was one of the most significant and 
moving testimony and reports that I have ever ever heard. And I 
think certainly the State Department should do everything they 
can, quite frankly, to bring about regime change in North 
Korea.
    When this government falls, as it will fall, the same way 
the East German Government fell with regard to the Berlin Wall, 
the West will feel so guilty to know that it said nothing, 
other than the hearings that the members here have had, has 
said nothing with regard to what takes place. This 
administration should do everything.
    And lastly, and I will end with this. I think the church in 
the West, all religious faiths in the West, should come 
together and support these people in every way they can, to see 
about that the fact that hundreds of thousands are in these 
camps is totally unacceptable. So anyone within the Voice who 
can hear this, can follow this hearing. Ought to be advocating 
it.
    So I want to again thank you, Mr. Payne, and the other 
members, and thank the witnesses for coming by my office. I am 
on my way to a 4 o'clock, but I was just moved to come by 
because what I heard was just so powerful. And with that, Mr. 
Chairman, I yield back. I thank you very much.
    Mr. Smith. Chairman Wolf, thank you very much. Ms. Kim, if 
you could continue.
    Ms. Kim Hye Sook. And I was plagued with hunger from the 
day I entered the prison camp until the day I was released. And 
my one wish was to just eat one bowl of white rice for one 
meal. After I became an adult and during my times of working at 
the coal mine, walking to and from work, I would look around 
for anything to eat. And regardless of season, it became a 
habit to scrape or pluck anything that was green and make soup 
and eat it, whether it was from tree bark or from grass. I 
cannot even begin to describe how many people suffered and died 
because of starvation in the prison camp and how many people 
were killed without reason for not listening to authorities or 
not showing enough repentance. Though public execution by 
firing squad--through public execution by firing squad, their 
bodies were riddled with countless bullet holes, and I saw 
countless bodies that ended up like this. There was a time when 
I saw the bodies of people who were killed by firing squad were 
rolled up in a straw mat and carried away in carts, and I said 
to myself even dogs will not die so pitifully.
    In this place where human lives were worthless than those 
of flies, this was where my brother and husband died also. 
Their deaths were classified as due to accidents, but their 
deaths were intentional deaths carried out in the atmosphere of 
the prison camps where nothing was normal.
    And as a result of working the coal mines for over 12 
years, I contracted black lung and faced death many times. But 
in place of my mother, who passed away before me, I vow to 
survive and live on and look after my siblings, my remaining 
siblings, and that devotion was what allowed me to survive that 
hell. And my siblings are still incarcerated at camp number 18, 
my brother and sister.
    And in December 1974, before our family was sent off to 
prison camp, camp number 18, my father was hauled away by the 
State Security Bureau, never to be heard from again. I do not 
know what happened to him to this day. And even at this moment 
as I speak, there are over 10,000 people--20,000 people who are 
in camp 18 without knowing the reason why, people who are dying 
from abuse and lack of rights at this very moment.
    And this is not just happening in camp number 18, but I 
would like to say that this is the suffering and sadness that 
23 million North Korean citizens are going through and 
suffering, experiencing right now.
    Not only that, but besides the human rights violations 
going on in North Korea, there is now the cruelty and misery 
inflicted on North Korean refugee women who have escaped North 
Korea into China through the terrible situation of human 
trafficking happening in different places. After narrowly 
escaping death and coming out of North Korea and into China and 
then becoming victims of human and sexual trafficking, I can 
say with authority that the tragic situation of the North 
Korean refugee women must be told again and again in the 
international community. I myself was sold four different times 
in four different cities in China. And the inhumane and the 
indescribable suffering that these women go through in China, 
being sold like commodity, still keeps me awake at night.
    Please end the existence of such a society and make it into 
a place where humans can live as people. Please let the people 
without any rights in North Korea live in freedom and 
happiness. Please get rid of the political prison camps, and 
please tell those who do not know about freedom what freedom is 
about.
    I sincerely hope that my earnest pleas will be delivered to 
the United States Congress, to the United States Government, 
and to the people of America. I also want to deeply thank the 
honorable members of this committee here today who have made it 
possible for me to speak, as well as Ms. Suzanne Scholte of the 
Defense Forum Foundation.
    Thank you.
    [The prepared statement of Kim Hye Sook follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Kim, without a doubt, your message has been 
heard, and thank you for sharing what can only be described as 
enormous suffering that you have experienced, being sold into 
sexual slavery, the loss of family members, and so there will 
be positive consequences for your testimony. We will work hard 
to promote human rights in North Korea, I can assure you of 
that.
    Before going to Mr. Scarlatoiu, I would just note I have a 
bill on the floor right this minute. It is the reauthorization 
of the Combating Autism Act of 2011. So I will leave briefly, 
but, without objection, Mr. Payne has graciously said that he 
will take the committee now.
    Ms. Scholte. Congressman, I just want to say, this is a map 
that she drew of the camp she was in.
    Mr. Payne. We will now hear from our final witness.

STATEMENT OF MR. GREG SCARLATOIU, EXECUTIVE DIRECTOR, COMMITTEE 
                FOR HUMAN RIGHTS IN NORTH KOREA

    Mr. Scarlatoiu. Good afternoon, Mr. Payne and Ms. Bass. 
Thank you for inviting me to speak with you today about the 
human rights situation in North Korea and about the apparent 
increase in the amount of information getting into that 
country. It is an honor and a privilege to have the opportunity 
to discuss these issues with you today.
    Mr. Payne, I would like to begin by informing you that I 
will be presenting a brief summary of the views included in my 
prepared statement.
    Mr. Payne. Thank you. Without objection.
    Mr. Scarlatoiu. After the very emotional and comprehensive 
testimony by Ms. Scholte, after the heartbreaking testimony by 
Ms. Kim Young Soon and Ms. Kim Hye Sook, there is barely 
anything I can add on the human rights situation in North 
Korea. The human rights situation in North Korea remains 
abysmal.
    According to experts and testimony by recent North Korean 
defectors, there is no evidence that the human rights situation 
in North Korea has improved as the Kim regime proceeds with 
steps toward leadership succession. On the contrary, it appears 
the border crackdown aimed at preventing North Koreans from 
defecting to China has intensified, and the political prisoner 
camp population has been on the increase.
    In May of this year, Amnesty International released 
satellite imagery and new testimony shedding light on the 
horrific conditions in North Korea's political prisoner camps. 
According to that organization, the prisoner population 
detained at such camps is up to 200,000; and a comparison of 
the latest satellite photos with satellite imagery from 2001 
indicates a considerable increase in the scale of the camps.
    Moving on to the flow of information getting into North 
Korea, although officially all personal radios must have a 
fixed dial and be registered with state security offices, 
programming by stations, including Voice of America, Radio Free 
Asia, and broadcasters based in South Korea may have a 
listenership of around 30 percent in North Korea.
    The number of radios smuggled from China has been on the 
increase. The North Korean authorities continue to attempt to 
jam foreign broadcasting but face serious limitations in their 
efforts as jamming is energy intensive and North Korea is 
experiencing endemic energy shortages.
    In recent years, we have found out that there has been a 
significant increase in the amount of information entering 
North Korea. This development is the result of the 
marketization that has taken place in that country. Such 
marketization is by no means an intended top-down reform 
program but, rather, a function of state failure. Small, 
informal markets provide ordinary people a coping mechanism 
that enables them to survive.
    During the informal marketization of North Korea, supply 
chains have developed from China to North Korea's capital city 
of Pyongyang; and MP3 players, CD-ROMs, DVDs, and thumb drives 
have been entering North Korea. Statistical data, including a 
2010 survey of North Korean refugees and travelers by the 
Broadcasting Board of Governors, indicate that 27 percent of 
respondents have listened to foreign radio, 48 percent have 
come in contact with foreign DVDs and other video material, 
while 27 percent have watched foreign TV.
    Information is also being passed from one member to the 
next along such supply chains. It appears that the ``Korean 
Wave,'' consisting of South Korean soap opera and music, 
exceptionally popular elsewhere in Asia and beyond, has also 
reached North Korea. According to Japan's Asahi Shimbun, one 
member of a group of nine North Koreans who recently sailed for 
5 days before being picked up off the west coast of Japan 1 
week ago on September 13, this gentleman, a squid fisherman, 
said that he was inspired to leave his home by South Korean 
soap operas.
    In January, 2008, Egyptian company Orascom Telecom Holding 
was awarded a license to establish a 3G mobile network in North 
Korea. When launched in December, 2008, Koryolink had 5,300 
subscribers. In its half-year earnings report for January-June, 
2011, published on August 10, Orascom stated the number of 
subscribers in North Korea had reached 660,000.
    Separate from the expansion of the Koryolink network, 
citizens of North Korea have also been using Chinese cellular 
phones smuggled across the border into North Korea.
    We have indication that Koryolink intends to launch 3G 
Internet service via Apple iPad in Pyongyang this fall by a 
special SIM card. Nevertheless, Internet access is likely to 
continue to be restricted to foreign residents and those close 
to the Kim regime. There are also those North Koreans who 
possess computers not connected to the Web, and they are 
estimated to represent about 3 percent of the entire 
population.
    Based on data collected through interviews with North 
Korean defectors and the proven track record of success in 
winning the ideological confrontation during the Cold War, 
radio broadcasting will continue to be one of the few media 
available to grant the people of North Korea access to 
information from the outside world. Computers not connected to 
the Internet, thumb drives, DVDs, CD-ROMs, and MP3 players have 
become increasingly available, although access to such devices 
is still relatively limited. Efforts to increase the flow of 
the information into North Korea should take into account the 
increasing availability of such vehicles.
    I wish to thank the subcommittee and its staff for the 
opportunity to testify before you today, and I would now be 
pleased to try to answer any questions that you might have.
    Thank you very much.
    [The prepared statement of Mr. Greg Scarlatoiu follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Payne. Thank you very much.
    Let me once again thank each of the witnesses. Your 
testimony is certainly very compelling. We, of course, have 
heard and we try to keep up with the situation in North Korea, 
but it certainly brings it home when we have a hearing and to 
hear especially from individuals who have lived through the 
horrors of this regime; and, of course, we appreciate our 
experts from the Defense Forum Foundation and the Committee for 
Human Rights in North Korea.
    Perhaps to either one of you who are working with 
organizations that deal with that, Mrs. Scholte or Mr. 
Scarlatoiu, the special envoy for North Korea human rights, 
Ambassador Robert King, has said that the United States 
Government would engage in an in-depth dialogue on human rights 
issues at the Six-Party Talks. The Six-Party Talks are at an 
impasse.
    The absence of Six-Party Talks--first of all, what do each 
of you feel that the Six-Party Talks have achieved in the past 
and whether there were any real gains forward, first of all? 
But, secondly, if, indeed, you feel that it is an impasse or 
there is really not a real effort on the part of North Korea, 
what other fora would the Obama administration consider 
employing for human rights dialogue with Pyongyang? So whether 
talks past, and they have been going on for a bit through 
several administrations, and if they are scrapped, in absence 
of that, could there be anything else or should we continue 
with these? Could I ask each one of you if you would like to 
comment.
    Ms. Scholte. Well, first of all, I think that, regarding 
the Six-Party Talks, this was an effort by the Bush 
administration to rein in North Korea's nuclear ambitions, and 
they made the decision that they would just focus on the 
nuclear issue and not address any of the human rights concerns. 
They kicked the human rights concerns down the road.
    We can tell by history that North Koreans are brilliant at 
manipulating the talks and using talks to gain aid and support, 
make promises they never intend to keep. They did the same 
thing to Bill Clinton during the Agreed Framework, and I think 
former President Clinton could be excused for that because he 
was dealing with a new dictator when he was President. But the 
Bush administration I think should have known better. They 
should have known the history of how this regime uses talks.
    What you have seen during these talks, the result has been 
North Korea has developed nuclear weapons. It is very active in 
the proliferation of nuclear weapons, and exactly the purpose 
of these talks was never realized. But, at the same time, 
millions of North Koreans have died. And so I think that 
talking with this regime is useless. They only use these talks 
to extract concessions and support and legitimize the regime.
    I think, instead, we need to take a new approach. I think 
President Obama is in a unique position to do that.
    I think that we should make human rights the number one 
policy of our Government. I think that we should reach out to 
the North Korean people. I think that President Obama should be 
talking about the fact that--I think we should say we want to 
give North Korea as much aid as they need so that the people 
are not starving, but we want to be able to see that it is 
consumed. I think we should be talking about the fact that we 
want to help the people. We want to improve conditions there. 
We would like to see the International Red Cross go to 
political prisoner camps.
    North Korea denies they have any camps. Well, fine, let's 
let an independent agency like the International Red Cross go 
to these camps.
    And I think that we need to be focusing on the human rights 
issues in our policy but, at the same time, doing everything we 
can to support the kind of creative things that the defectors 
themselves are doing in radio broadcasting and these balloon 
launches. Because the impact that Free North Korea Radio had, 
which went on Internet broadcast in 2004 and then went on 
shortwave in 2006, the impact that Free North Korea Radio had 
was amazing. It set the pace for all the broadcasters because 
it was the defectors themselves.
    And as you know, the North Koreans are raised to believe 
that South Korea and the United States caused the Korean War. 
They are brainwashed with stuff that we would think was 
completely ridiculous, but they believe this. So when the North 
Koreans themselves are talking and broadcasting these views and 
these opinions into North Korea, North Koreans can't dismiss 
them. So it has had a tremendous impact, and I think we have to 
be doing everything we can to reach out with that message to 
the North Korean people and using the defectors especially.
    Mr. Scarlatoiu. Mr. Payne, the main reason why nothing has 
been happening on the Six-Party Talks front for a while now is 
that North Korea has refused to act as a responsible member of 
the international community.
    North Korea has continued to proceed with missile nuclear 
developments. North Korea engaged in very serious provocations 
last year. In March, it launched a torpedo attack on the South 
Korean corvette, the Cheonan. Forty-six South Korean sailors 
were killed in that attack. As you have already mentioned, on 
November 23, North Korea shelled South Korean territory, the 
South Korean island of Yeonpyeong, and this attack resulted in 
military and civilian casualties.
    We have already heard about assassins sent to kill Mr. Park 
Sang-hak, one of the very active North Korea defectors in South 
Korea, a few weeks back. There were deep concerns about an 
alleged assassination plot targeting Mr. Kim Kwan-jin, the 
defense minister of South Korea. And before the most high-
profile North Korean defector, Mr. Hwang Jang-yop, passed away 
late last year, only few months before that we heard about a 
plot that was targeting him for assassination.
    That being said, North Korea has also continued to oppress 
its own people. North Korea has continued to refuse to abide by 
the international obligations that it is supposed to abide by, 
given it is a party to the international Covenant on Civil and 
Political Rights; the international Covenant on Economic, 
Social, and Cultural Rights; the International Convention 
against All Forms of Discrimination against Women; the 
International Convention on the Rights of the Child; and, as a 
U.N. member state, it is supposed to be bound by the U.N. 
Universal Declaration on Human Rights.
    As to whether human rights should be on the agenda, it is 
the firm belief of the Committee for Human Rights in North 
Korea that human rights, the improvement of the human rights 
situation in North Korea should be at the top of our 
priorities; and, personally, as I hope that one day we will see 
the complete, irreversible, and verifiable dismantlement of 
North Korea's nuclear program, I also hope that we will see the 
complete, irreversible, and verifiable dismantlement of North 
Korea's political prisoner camps as well.
    Mr. Payne. Thank you very much.
    Let me ask you, Ms. Kim Young Soon, or you, Ms. Kim Hye 
Sook, there is--and I know that your experiences in North Korea 
were years ago and you have very compelling testimony. I am 
just curious to know, in your days as a young person, as a 
child, as a teenager, as a young adult growing up, what type of 
society, what type of programs does the government impose on 
children?
    You know, it is supposed to be a time of life when people 
are happy. They are growing and learning. To your best 
recollection, could you, if you can, explain what is life like 
for a young child and a young teenager, young adult growing up 
in North Korea today, if you can sort of transpose your 
experiences.
    Ms. Kim Young Soon. Congressman, in answer to your 
question, after the liberation from Japan in 1945 and until the 
1970s, North Korea was actually a little bit better--was 
actually better than South Korea in terms of the economic 
situation.
    And as for myself, when I was young, I went to school and I 
attended the university, Pyongyang University of Fine Arts, and 
I majored in dance. I learned under the teachings of a very 
well-known North Korean dancer. And before I went to Yoduk 
prison camp, I can say with assurance that I was very happy, 
that my happiness quotient, so to speak, was very high in terms 
of living in North Korean society.
    Mr. Payne. Thank you.
    Ms. Kim Hye Sook. Congressman, for my case, before I was 
sent away to Bukchang prison camp, I had a life where I had no 
worries about food, about eating. I went to school. I lived a 
normal life. But because I was sent to prison camp at such an 
early age, that is all about that I can share about in terms of 
my experience in relation to your question.
    Mr. Payne. Thank you.
    One other question that I was just curious about. As we do 
know that in World War II there was the question of the 
brothels that were created in Korea, and I wonder whether it 
was in the north of Korea or was that primarily in Korea 
itself, if anyone recalls.
    As you may know, we are still working on a real apology 
from the Government of Japan. There has been some apologies, 
but this has been an issue that has plagued the world since 
that time. I wonder whether it was prevalent throughout Korea.
    Ms. Kim Young Soon. My answer to you, sir, is that before 
liberation in--before the liberation in 1945, even in the 
northern part of the peninsula, North Korea, there were 
incidents or places where these comfort women stationed on 
locations were based in North Korea, and I believe that even if 
this issue were to be addressed with the Japanese Government we 
would not be getting a satisfactory answer or clear answer from 
the Japanese Government in regard to your question, sir.
    Mr. Payne. Thank you.
    I yield to the gentlelady from California.
    Ms. Bass. Thank you very much, Mr. Chair.
    I actually would like to follow up on a question that Mr. 
Payne said to Ms. Soon and Ms. Sook about your childhood until 
you went into the camps. And, Ms. Soon, you said up until the 
1970s--and I realize that is when you went into the camps--but 
did things drastically change in North Korea and when?
    Ms. Kim Young Soon. To answer your question, Kim Il Sung's 
propaganda was set in place between the years of liberation and 
until the Korean War. Those years were known as the best years 
in terms of the affluence and prosperity of North Korea.
    After the Korean War, there were various economic trends 
that were instituted to try to help the economy and to help the 
people live better. But, in 1987--in the late 1980s, after the 
Soviet Union collapsed and after the help from that part of the 
region stopped, that is what brought on the change in terms of 
the economic downturn and the conditions for the people in 
North Korea.
    Ms. Bass. I see.
    First of all, let me also just thank you for coming and 
sharing your testimony. I think it is very, very important that 
people in this country hear and learn what is going on in North 
Korea, because I don't think much is known here about what is 
happening there. And the pain and the suffering that you have 
described, the loss of your family members, not knowing where 
your children are, your husband, you know, is just--I think it 
is an immeasurable amount of pain, and I appreciate you taking 
the time and sharing that with us.
    I think it is especially important because the need for 
foreign aid and the need for assistance--and I am sorry, I 
don't want to mispronounce your name--Ms. Sook, when you talked 
about the need for there to be foreign assistance and food and 
all in times when we are talking about cutting back. So I think 
the message is critically important.
    But, Ms. Sook, you were saying that you thought that we 
shouldn't have discussions, negotiations with North Korea, but, 
at the same time, we should do what we can to, you know, 
deliver food and other things that the population would need. 
How do we do that? I understand the communication part, 
funding, but how would we get aid to people? How would we get 
aid to the people that need it?
    If Ms. Soon could answer it first, Ms. Soon or Ms. Sook, 
that would be great.
    Ms. Kim Young Soon. I would like to say that the world is 
supporting North Korea because they hear stories of people 
starving and suffering. But, as a North Korean defector, I 
believe that the regime of North Korea should be completely 
isolated, and that is the only way to change the regime. And 
unless North Korea adopts a market economy and changes 
drastically the way it--the way the country is run, nothing--no 
change will come. And, as a defector, I would like to say that 
real help would be for the Kim Jong Il regime to be completely 
isolated and stop the aid that is being given to the regime.
    Ms. Bass. Weren't you calling for something different?
    Ms. Scholte. Actually, I agree, except I was just making 
the point that if we are going--I actually believe in a 
substantial amount of assistance but only if we can stay to the 
point of consumption. Because if the relief--if we send any 
amount of assistance to North Korea, it will be diverted. And 
when you talk to defectors, they never saw any food aid; and 
when you talk to defectors that serve in the military, they 
will tell you the World Food Programme rolls into town, 
delivers rice to these families. Right after they leave, the 
army comes back and takes it all back.
    In fact, there was a Dr. Norbert Vollertsen who testified 
some years ago about how he had gone to an orphanage and they 
had handed out cookies, and the kids just sat there with the 
cookie waiting for somebody to come back and take it away.
    So the diversion has been absolute; and, because of that, I 
think that that is the kind of a message that we could send 
that would be a very powerful message for positive propaganda, 
which is that we very much are concerned about the starvation 
and the political prisoner camps and the situation in North 
Korea. We want to help you. We hear about these stories. We 
want to help you, but we want to be sure that we are actually 
helping the people. And we are only going to give that aid if 
we know we can stay there.
    Even from the very beginning when the famine first started, 
North Korea put such stipulations on the food aid. They 
actually didn't want--I have never heard of this before, but--I 
have never heard about this before--and challenge me on this--
but I don't think of any situation where there is a country 
where there was starvation, where the country that was the 
intended recipient of the aid demanded that the aid deliverers 
couldn't speak their language. I don't think that has ever 
happened in any place but North Korea. Because usually if you 
are going into a country to deliver aid, you are desperate for 
somebody who speaks the language. But that just speaks volumes 
about just from the very beginning of their intention to divert 
aid.
    So because of the difficulty of preventing aid from being 
diverted, that is why I say we should only provide aid if we 
can be there at the point of consumption.
    I could tell you all kinds of stories, but if we were to go 
in an orphanage and deliver formula, we have got to make sure 
those babies get that formula. Because Action Against Hunger 
did that, and that formula ended up in Pyongyang in the 
markets, and those babies were given watered-down goats' milk 
when they showed up a month later to find out what happened to 
the tons of baby food it had delivered to that orphanage. That 
is just one example.
    But I think that--and then the second point I was making is 
that we should be looking at creative ways to get in 
information, like radio broadcasting but also through the 
balloon launches and also through the North Koreans that have 
defected that are sending in remittances into the country that 
are helping support their families.
    Ms. Bass. Thank you very much.
    Mr. Payne. Thank you.
    The chairman has returned, so I will give the chair back to 
him and hold any questions I have until a later time.
    Mr. Chairman.
    Mr. Smith. I want to thank Ranking Member Payne for leading 
the committee. Again, I had to leave because a bill of mine on 
autism was on the floor; and it did pass, thankfully.
    Let me just ask a question, if I could, a few years back in 
2002, in May, I chaired a hearing on North Korea human rights, 
one of several; and we had Dr. Norbert Vollertsen, a former 
medical doctor inside of North Korea, who actually was given a 
huge award by the dictatorship for his medical expertise and 
the fact that he helped cure a whole lot of people. But he also 
then told the truth about the human rights situation, and he 
said that they are using food as a weapon--talking about the 
dictatorship--against their own people. They are committing 
genocide, and I think we have to care. As an international 
community, we have to intervene.
    Ms. Scholte, would you say--that was in 2002--that the 
international community--and I heard in your opening comments 
that you had criticism that Bush did not focus on human rights 
nor did Bill Clinton in North Korea. We did pass the North 
Korea Human Rights Act. I was one of the cosponsors of that 
bill. Jim Leach was the prime sponsor. It was an excellent 
bill. Mr. Payne--all of us--strongly supported it. Has that 
legislation lived up to its promise? Are we emphasizing human 
rights sufficiently in our dialogue or whatever it is of a 
dialogue with the North Koreans?
    Ms. Scholte. I would say I have been actually very 
disappointed after all the hard work we did in getting the 
North Korea Human Rights Act passed. I have been very 
disappointed right from the very start. The Bush administration 
said we welcome these tools that you are giving us to help on 
this issue, but then they never really used those tools.
    The one thing it did help I know with radio broadcasting 
and expanding VOA and RFA support, which was really I believe 
as a result of that legislation, was a huge--one huge, great 
thing, factor, that happened with the radio broadcasting. That 
is so important, and also helping like Free North Korea Radio, 
some of the independent broadcasters.
    The other thing, though, too, is the special envoy 
position. I think it is very significant that President Obama 
has made it very clear that his special envoy, Robert King, 
will be part of all discussions and negotiation on North Korea. 
That was not the case during the Bush administration. Jay 
Lefkowitz was cut out. So I think that President Obama is 
taking greater advantage of that legislation to try to do more 
with the North Korean rights act just by the very nature of the 
way he has elevated Ambassador King's position.
    On the comment you made about North Korea using food as a 
weapon, that is absolutely true. It uses food as a weapon 
against its own people, and they have an apartheid system in 
North Korea where people are classified based on loyalty to the 
regime. You have the elites. Then you have what they consider 
the wavering class, which is the class that is not considered 
to be completely loyal to the regime, and then you have got the 
hostile class. And if you are in the elites you may get white 
rice, but if you are down on that classification system, you 
may never see any rice your whole life. You may get corn.
    But the thing that has happened with the food is, because 
of the breakdown in the public distribution system which is how 
the regime rewarded people through this apartheid-type system 
based on loyalty, that system has broken down. That is why 
these markets are so significant, that you have over 200 
markets, and these are just the ones we know--can identify by 
satellite. These are just the ones we know by satellite. There 
are probably many more markets. But that is how people are 
surviving. They are trading and selling and buying among 
themselves in these markets.
    Mr. Smith. If either or both of our Kims could comment, Ms. 
Kim and Ms. Kim, on, one, the use of torture in the gulags. We 
have had testimony before this committee in the past that 
Christians and people of faith are even more selected out for 
repression especially, and women who are pregnant are often 
forcibly aborted in an absolutely crude--they get beaten around 
the abdomen and then miscarry. So it is a horrible thing. We 
had testimony of boards being put on women and soldiers or 
gulag security guards jumping on the boards on the abdomen of 
the pregnant women.
    Did you experience torture? And you mentioned how both of 
you, you saw littered bodies everywhere, that people were 
treated like animals.
    Ms. Kim, you said that, ``A society where the whole country 
is a prison. A society where those who escaped the country in 
search of freedom were caught and imprisoned and executed and 
where those who have escaped become lost people and orphans in 
the international community. A society where chastity and 
virginity, which is more precious than life, is sold cheaper 
than the cheapest of things.'' Of course talking about the 
scourge of human trafficking. If you could speak to the use of 
torture and these terrible and despicable atrocities being 
committed by the dictatorship.
    Ms. Kim Young Soon. In answer to your question, regarding 
my experience at Yoduk, before I was sent to Yoduk, during the 
2 months of interrogation, I was stuck in a room with no 
calendar, no clock, really a black hole for 2 months. And for 
somebody to come out of that and not go crazy, it is a miracle, 
and that is what I experienced.
    And in terms of actually being in Yoduk and my experience 
there, I saw violence--inmate-on-inmate violence. I was injured 
in my shoulder during work and also my fingers were injured 
during work. And in terms of torture, the violence, that is 
what I experienced during my prison experience at Yoduk prison 
camp.
    Mr. Smith. Ms. Kim.
    Ms. Kim Hye Sook. Regarding my experience, to answer your 
question, you could see in some of the drawings that I 
displayed what I went through.
    But at prison camp number 18 there was no paved road, and 
there were many times where the prison guards would force 
prisoners--would stop these prisoners walking back and forth 
from work within the camp. They would stop these prisoners, 
force them to open their mouths, and these prisoners would--
these prison guards would spit--spit the phlegm into the 
mouths--open mouths of prisoners. They would tell them if you 
swallow it you will not be beaten, but if you throw up or 
resist you will be relentlessly beaten.
    I experienced that torture a total of times during my 28 
years there. And in 2005--in 2005 when I--after I was released 
from camp and I was caught--I went into China, was caught and 
repatriated, during the detention period when I was going 
through that, I saw an incident where women who were also 
caught and repatriated were forced through repeated sitting and 
standing up action so that anything they were hiding in their 
uterus would fall out, hidden money or other contraband that 
the prison guards were trying to find.
    So that is the extent of the torture I witnessed from my 
time in North Korea.
    Mr. Smith. Mr. Scarlatoiu, you indicate in your testimony 
that there is evidence that human rights abuses in North Korea 
are intensifying as the regime takes steps toward leadership 
succession. Could you speak further on that issue and perhaps 
some of the evidence that you have that suggests that?
    Mr. Scarlatoiu. Mr. Chairman, I should tell you that our 
organization has published one quite well-known report on the 
political prisoner camps in North Korea called Hidden Gulag. 
That happened in 2003. We are now in the process of putting 
together a second edition; and, toward that goal, we have 
collected testimony by at least about 60 former inmates of 
political prisoner camps. The difference between now and then 
is that we have had testimony from some guards. We have better 
satellite imagery.
    Based on such testimony, we seem to see intensified 
political repression, we seem to see a crackdown along the 
border with China, and all indications are that the new center 
nucleus of power being created around the third son of Kim Jong 
Il, around Kim Jong Un, is not composed of any type of 
reformists. We have all indications, including violent 
provocations against South Korea, violent military 
provocations, dispatching of assassins, intensified human 
rights violations in North Korea. We have all evidence that we 
are dealing with very hard-liners.
    Mr. Smith. Let me ask a question with regards to Juche. I 
read a book some years back about the self-reliance religion 
and the cult of personality, the deification of Kim Jong Il and 
Kim Il Sung before him, and it was a very detailed, heavily 
footnoted book with how they brainwash the people of North 
Korea. And I am wondering if all of you might speak to this and 
especially the two Kims. How did they overcome this 
brainwashing effort? Do people in North Korea really regard Kim 
Jong Il as good?
    There was a National Geographic piece on recently, and I 
watched it with great interest. I watched it more than once. 
And a doctor went to North Korea to do some surgeries on the 
eye, and he was having phenomenal success teaching other 
doctors and practitioners in North Korea to do so. But I was 
astonished how the people who had been helped, especially at a 
group meeting, were looking at a picture of Kim Jong Il and 
thanking him and getting on their knees and worshiping him.
    And the intensity of it was quite unnerving, frankly, and I 
am wondering how they deny people information. They jam 
obviously outside broadcasts, but this brainwashing obviously 
starts from the moment a child can speak and talk and hear, I 
should say, and I am wondering how they overcame that. Was what 
we saw on that video true, that he is regarded as a god?
    Ms. Kim Young Soon. I would like to answer your question by 
saying that in North Korea from basically childbirth, from 
kindergarten on, little children are brainwashed into believing 
that Kim Il Sung, Kim Jong Il are capable of superhuman 
accomplishments and that there are not enough words to praise, 
not enough words in the world to praise Kim Il Sung and Kim 
Jong Il, and they are so brainwashed that there is no room 
whatsoever in their minds to think otherwise in North Korea.
    And the people in North Korea, it is a situation where 
their minds have been replaced with a brainwashed mind, and 
there is no freedom to travel to countries where you need 
special color-coded passes to travel to a particular place, and 
it is a nation--society where hands and feet are tied of the 
people so that they cannot travel or be free in that society.
    Ms. Kim Hye Sook. To answer your question, from my 
experience, as soon as you are born in North Korea you are 
taught phrases: Thank you, dear leader; thank you, great 
leader.
    And one example I would like to give you, sir, is that in 
2009 when I escaped to China there was a woman with a young 
daughter who accompanied me, and the Chinese family that was 
helping us gave this starving child food, and the first words 
out of the child's mouth when she received the food was, thank 
you, dear leader, Kim Jong Il. So that goes to show you the 
extent of the brainwashing.
    And in North Korea from the moment you are born until the 
day you die, thank you, dear leader, Kim Jong Il; thank you 
great leader, Kim Il Sung, those words are just brainwashed 
into the people's minds.
    Mr. Smith. Thank you.
    Just a few final questions and then--did you want--yes, Ms. 
Scholte.
    Ms. Scholte. I just wanted to add one comment. That is one 
of the things about this whole idea----
    There was a woman I met who had been a defector, and she 
had taught philosophy. So I casually asked her, oh, who is your 
favorite philosopher, you know, and she was like, oh, I only 
taught Kim Il Sungism and Marxism for the first 10 years of my 
career, and then for the last 10 years, just Kim Jong Ilism. 
And I said, well, when you got free to South Korea, did you 
pursue philosophy? And she said, no, I was afraid that my brain 
was too twisted to be able to understand that.
    And I thought the fact that she admitted that proved that 
it wasn't, that she--her brain had opened up, but she was 
actually studying North Korean studies to figure out a way to 
help her country.
    But I want to say one of the programs that Free North Korea 
Radio is trying to do--and we are actually reaching out to the 
Christian churches to help us. We want to do a program 
explaining the concept of, you know, when we think of religious 
faith and self-sacrifice and helping others versus what they 
are brainwashed to believe, to try to help North Koreans kind 
of open them to understanding the concepts that we have got in 
the Western world, which is serving others and helping others, 
which is a complete opposite of everything that they are 
taught, which is they are the servants of the regime.
    That is one of the things that I think is really important, 
because the defectors know how to articulate those kinds of 
things.
    And another thing, too, there is an organization called the 
Coalition for North Korea Women's Solidarity, and this is a 
coalition formed by North Korean women, most of whom were 
victims of trafficking. But the whole concept--when they first 
came to South Korea, the whole concept of human rights is 
completely alien to them, and you would believe that the social 
society is trying to say, well, that women are equal, but in 
North Korea women are treated horribly. So this is something 
that they are doing to help restore these women and teach them 
the value they are as human beings and the value they are as 
women. It is a very important program the defectors are taking.
    Mr. Smith. Mr. Scarlatoiu.
    Mr. Scarlatoiu. I think that the brutal and ruthless 
dictators such as the Kims in North Korea and the cult of 
personality built around them depend by far and large on 
denying their citizens knowledge of alternative economic, 
social, and political systems.
    You have mentioned that Christians are subject to harsh 
punishment. We have also come across evidence that, among those 
North Korean defectors forcibly repatriated from China, those 
who have come in contact with Christian missionaries or South 
Koreans face particularly harsh punishment, in some cases 
amounting to public executions. Most likely the main reason 
beyond that is that both Christianity and South Korea present 
alternative systems.
    One great advantage that eastern Europeans had primarily 
through public broadcasting that they were receiving from the 
outside world was that it was clear to them that the 
capitalist, liberal democracies of the West were clearly the 
alternative; and I really think that we have an opportunity now 
to focus on improving the flow of information to North Korea, 
to persuade not only the overwhelming majority of North Koreans 
who are so oppressed but also, why not, the elites of North 
Korea, that there is life after the Kim regime and that 
alternatives are available.
    Mr. Smith. Let me just make a note here that we have 
asked--I have asked the administration in hearings and through 
other means to put China on Tier III for human trafficking, not 
only because of the horrific rise in sex trafficking in the 
People's Republic of China among Chinese but also because if a 
North Korean woman thinks she has gotten to relative safety and 
freedom by crossing the border, she invariably is sold into 
human trafficking. And the Chinese Government doesn't lift a 
single finger to mitigate her pain and to rescue her and to 
crack down on the traffickers who dot the border looking for 
women who are leaving that country.
    They also violate the Refugee Convention, and China is a 
signatory to the Refugee Convention, because they send back men 
and women who are most likely to be incarcerated in the gulag, 
if not executed, for leaving without permission. So China bears 
a huge responsibility for its enabling and complicity in the 
crimes of Pyongyang.
    Let me also ask just a final question: How would you rate 
the international community's response, including the U.S., 
Europe, and especially the United Nations? There is a high 
commissioner for human rights. There is a whole rapporteur 
system. Obviously, they have not had access in most cases to 
North Korea. But there is also the Human Rights Council, which 
was supposed to speak truth to power regardless of the 
consequences and hold countries to account.
    Now, I frequently would, when it was a commission and now 
the Council, would ask the Council or commission to raise human 
rights in North Korea; and, frankly, there have been 
resolutions in the past. But it has struck me that they are 
almost like pro forma resolutions. They have low expectations. 
There is no sense of shock or dismay over what Kim Jong Il has 
been doing and his fellow dictators in Pyongyang. And there is 
that sense, you know, it is an obligatory chastisement and no 
one expects anything to change. And, because of those low 
expectations, that country in no way is held to account.
    So why is the international community so incredibly passive 
when it comes to what is equivalent to what the Nazis did in 
its gulags to its own people and to Jews and to others, which 
is going on current day in North Korea? If you could speak to 
that.
    And to the two Kims, finally, I was in South Korea 
recently, spoke to a number of lawmakers and others in Seoul, 
and I was kind of surprised--and maybe I am wrong in my 
impression--to glean from that experience that many people in 
South Korea don't have the kind of understanding of the two 
Kims that have been brought to this committee, and that is what 
goes on in those gulags and the huge repression that is from 
womb to tomb by the dictatorship. The young people kind of 
trivialize it in South Korea. Is that true or is that a false 
impression that I picked up on that trip? ``We know it is 
there, but it is not as bad.'' And they just don't seem to take 
it at face value for the huge atrocity that it is.
    So any of you who would like to speak to that.
    Mr. Scarlatoiu. Chairman Smith, regarding your first 
question, at the Committee for Human Rights in North Korea, we 
are very familiar with the work and the reporting done by the 
U.N. special rapporteurs on the human rights situation in North 
Korea. Both the current rapporteur, Professor Marzuki Darusman 
from Indonesia, and the previous rapporteur, Professor Vitit 
Muntarbhorn from Thailand, are very dedicated scholars and very 
good human beings who have worked very hard to put together----
    Mr. Smith [continuing]. Has testified before our committee 
in the past.
    Mr. Scarlatoiu. We are aware of that, sir--so they have 
done extraordinary work to shed light on the atrocities and the 
human rights violations happening in North Korea.
    I think that organizations such as ours have a duty to 
inform the international community, to conduct research, to 
publish about the human rights violations happening in North 
Korea, and to engage in robust public information campaigns to 
inform the public here in the United States and beyond and also 
to inform North Koreans on the rights that they have but are 
being violated with such impudence.
    Ms. Scholte. I was going to say that you mentioned China, 
and I would say that there is a direct correlation between the 
ability of the U.N. to do anything and China stymieing those 
efforts.
    And what you mentioned about the refugees, this is the most 
solvable human rights crisis that is going on in the world 
today. It could be solved overnight if China simply followed 
the treaties that it signed. The UNHCR has an office in 
Beijing. These refugees have a place to go. They are the only 
refugees I know in the world that--again, another thing that 
makes North Korea unique--that have a place to go. Because they 
are citizens under the South Korean constitution. And, of 
course, our North Korean Human Rights Act says that we will 
take some here, and people are willing to resettle them.
    So there is no reason for China to continue this brutal 
policy of repatriation that has caused 80 percent of North 
Korean women to be trafficked in this basically modern-day 
slave markets.
    And I believe you have a hearing tomorrow. One of the 
pressures on this is the fact that China has a shortage of 
women because they have been murdering unborn baby girls all 
these years. They have had this policy--one-child policy, and 
that has led to the shortage of women. So that is why young 
North Korean women that are vulnerable are being sold.
    But China is the reason why we can't get more action at the 
United Nations, because they block efforts, when the Cheonan--
everyone realized that North Korea had caused the death of 
these South Korean sailors, China was the one that was 
suppressing that, action on that. And so as long as you have a 
country like China have such tremendous influence on the U.N. 
that is involved in perpetrating these crimes that are 
happening in North Korea, you are not going to get any real 
action by the United Nations. Anyway, that is my--and I know 
you wanted to say something too.
    Ms. Kim Young Soon. I would like to add that the crimes 
against humanity committed by the Kim Jong Il regime is the 
worst in the world, and the United States needs to just totally 
isolate the regime of Kim Jong Il. The best way to go about 
prosecuting the crimes against humanity that Kim Jong Il has 
committed is to report him to the International Criminal Court. 
And I believe that the United States will be able to do a good 
job of leading an international movement work to make this--to 
bring about this work of bringing Kim Jong Il to the ICC, to 
the International Criminal Court.
    And I would just like to say again that as long as Kim Jong 
Il is, as long as he exists, the people suffering will 
continue. And I would like to just say once again that my 
earnest desire is that the United States will take the lead in 
helping the world, the entire world, focus on the important 
issue of--focusing on human rights issue and of isolating Kim 
Jong Il regime and to not provide any aid or help that will 
only go toward keeping the regime alive.
    Ms. Kim Hye Sook. I also would like to point out, as I am 
sitting here before media and before the Congressman here, that 
regarding food aid, I would just like to point out that my 
younger sister and brother who are still in the prison camp, 
certainly all the food aid that has been given is not going to 
them, is not being sent to them, where the people that need it 
the most, the prisoners, the starving prisoners in prison would 
need the food aid the most, but it is only going to the elites, 
to the military or to the security apparatus in feeding them 
and empowering them, only giving them more life, more power, to 
continue the abuse that I drew, the drawings that you can see 
on display here.
    Ms. Scholte. Also, the attitude in South Korea, right? You 
asked also about the attitude in South Korea?
    Mr. Smith. South Korea, especially the young people.
    Ms. Scholte. I definitely think they might have a comment 
about that.
    Mr. Smith. It is almost like a sense of disbelief as to the 
scope and the cruelty of Kim Jong Il.
    Ms. Scholte. This is so important.
    Mr. Smith. Is it the media that has downplayed it?
    Ms. Scholte. That is a huge issue. That is so important, 
because you would think that the country that should care the 
most has been the slowest to respond. The reason for that is 
during the years of the D.J. Kim government and the Roh 
government, they actually banned information to be reported 
about what was going on in North Korea because they had the 
sunshine policy, which is basically an engagement policy. And 
the award-winning documentary Seoul Train, which is still very 
popular today, for example, that was produced by some Americans 
about the refugee crisis in China--North Koreans escaping and 
the whole situation--that was banned from being shown in South 
Korea by the government. So there was a suppression of the 
horrors that were going on.
    They can tell you stories about--she wanted to speak before 
the South Korean Assembly but she wasn't able to do it, Mrs. 
Kim. And what has happened, though, is--oh, she was going to 
speak before them, okay. And they can share that with you. But 
what happened is with the provocations that have happened 
against South Korea by North Korea, unprovoked attacks, there 
has been an awakening in South Korea. And I am very pleased to 
see a lot of young people being drawn to this issue.
    I have actually gone to a conference in 2002, an 
international conference on North Korea rights in Seoul, in 
which people like these defectors were going to speak, and 
there were students protesting against the conference. But that 
has changed a lot. Young people are really getting drawn to the 
issue. But it has been very difficult to move the hearts and 
souls of the Korean lawmakers. They still have not passed the 
North Korean Rights Act, which has been done by Japan and the 
United States, bipartisan. And that has been a real source of 
contention.
    Mr. Smith. And it brings to mind after World War II, it was 
Eisenhower who said, ``Do not burn down the concentration 
camps,'' because there were some Germans who were in disbelief 
that they were real. And it seems to me that when it is an 
actual policy of a government to suppress the truth, there is 
something inherently wrong with that because it creates a 
distortion, a gross caricature of what Pyongyang is actually 
doing.
    And I hope this hearing, and it will be followed by 
additional hearings, will further the information. I mean, I 
was telling, or in conversations, conveying information about 
what I had read and what I had learned from hearings and from 
defectors that had--and my friends who are South Korean with 
whom I was meeting, was met with disbelief as if somehow I was 
exaggerating or engaging in some kind of hyperbole, when the 
truth on the ground as you have so borne--so ably witness to is 
even worse than what we could imagine in terms of the cruelty 
and mistreatment.
    Ms. Scholte. I just thought of something else I need to 
share with you. In October I was at a balloon launch. And I was 
with Kim Seong Min, Park Sang Hak, the North Korea People's 
Liberation Front, we were getting ready to do a balloon launch. 
And there was a former North Korean defector who served in the 
military. And he was so upset because there were these leftist 
South Koreans trying to stop the balloon launch and saying they 
were pro-Kim Jong Il. And he was so upset and almost had tears 
in his eyes. And he was like, I came from that country, how can 
they deny the horrible things that I have seen? And I remember 
holding him saying, Well, we don't want to get in a 
confrontation with them. And I said something like, I know how 
you feel. And I thought I don't know how he feels. That 
people--that he could have gone through these horrible things 
and then have people denying it and trying to stop him from 
doing something to reach out to the people who are suffering.
    Ms. Kim Young Soon. I would just like to add what you said, 
Congressman Smith, about the people in South Korea, the young 
people to the politicians, not fully knowing or understanding 
or appreciating the situation in North Korea. She 
wholeheartedly concurs with that statement. And because of the 
strong presence of the leftist and the pro-North Korean 
elements in South Korean society, I believe that the peninsula 
is not ready for unification, South Korea is not ready to be 
unified with North Korea. And I would again like to ask for the 
United States to take the lead in increasing knowledge and 
awareness about the situation in North Korea and help lead 
other nations to be able to achieve this. And there are 23,000 
North Korean defectors who have resettled in South Korea.
    And also there is a diaspora of North Korean defectors that 
are all over the world. And if there is any sort of 
encouragement, help, financial help, that is given to us, we 
will stop at nothing and we will dedicate our very lives to 
bring about change and the regime in North Korea. And you could 
trust me when I say that, Congressman Smith.
    Mr. Smith. Well, Ms. Kim, I think your point about the 
leftists truly enabling by either suppressing or by denying 
that these atrocities are occurring, that makes them complicit 
in these crimes against humanity. And I would hope that clear-
thinking people, newspapers, and other media in South Korea 
will just tell the truth about what is going on in North Korea 
because the truth is liberating.
    And I would also add my endorsement to what you said about 
Kim Jong Il and others being held to account for genocide at 
the International Criminal Court. They have committed barbaric 
crimes. And while there are some U.N. individuals who have 
spoken out, there has been no holding to account in any 
meaningful way. So I echo and endorse what you said.
    Mr. Payne.
    Mr. Payne. Thank you very much. I just have a quick 
question and I will make a little comment quickly. With the 
prospect of the anticipation that Kim Jong Il leaves and his 
son would take over, that is a horrible prospect but what do 
you see the consequence of something like that happening?
    Ms. Kim Young Soon. I believe that Kim Jong Un will never 
be recognized or become the true leader in North Korea. But 
should he, or if he were to become the next leader, I believe 
that there is a chance that he might open up and reform the 
country from her point of view and her opinion.
    Mr. Payne. Thank you very much. I just want to comment that 
I think that in separated countries, like we see in Korea, the 
fact that much--in many instances the truth certainly is kept 
from the people in the south, the total truth, and it is 
difficult to know whose responsibility it is. Is it the 
government, is it the press, is it deliberate?
    One thing that usually happens in divided countries, as we 
saw in eastern and western Europe, although you can't compare 
eastern Europe totally, certainly not to North Korea, but there 
was a strong move for reunification. It is just a natural 
nationalistic move to reunite countries that were once united. 
And so I could possibly understand why some of the younger 
people would be striving for unification, trying to, of course, 
have a change, a regime change in the north. So I think it is 
kind of just normal nationalism, especially a country that may 
have felt that it has been abused or exploited by world wars 
and things of that nature.
    The other thing I remember clearly as I traveled through 
eastern Europe in the late 1960s, and I went to Poland, 
Germany, and Russia with some west Europeans, and saw, 
especially in Poland, photos of and news reels of the films 
taken inside of Warsaw with the Warsaw ghetto uprisings. And 
these were young adults, my age at that time, who could not 
believe how brutal their parents were when they were leading 
the Nazi regime. And they were talking in their own language, 
but I could kind of understand what the internal discussion was 
going on about, is this true? Almost disbelief. So I think that 
as we move forward I have to work with educating people to 
overcome some of these natural things.
    I also think that we should try to become even more active 
in the Human Rights Council. There has been some progress made 
because before the U.S. joined the Council, when it was the 
committee before and then the Council, issues like what is 
happening in Syria, the brutality of Bishir on its people, some 
of the other issues, would never ever be raised.
    And so there have been--I think because the U.S. has raised 
the issues, they have got to deal with them. And that is why I 
think it is important for us to be in the room, so that there 
could be answers when our allies are criticized or resolutions 
continually come criticizing them. We can then now say, Well, 
wait a minute, let me give you the other point of view.
    So I do hope that those agencies will also be strengthened 
as we move. And then, of course, us not being a part of the 
Rome Statute, it makes us a little less significant in the ICC 
where we have difficulty pushing for indictments for war 
criminals who should be indicted and the cases should be 
raised.
    The final thing I would like to say is really commend the 
South Korean Government. Several years ago I visited in one of 
my trips to Ethiopia, there is a hospital that the South Korean 
Government built, probably the best hospital in sub-Saharan 
Africa just about. And they did it because they were 
appreciative of the Ethiopian soldiers who fought in the Korean 
War. And, actually, most stunning is that for those veterans 
who are still alive who served, they have been paying pensions 
to these Ethiopian soldiers ever since the end--or, I don't 
know exactly if it started right at the end of the war, but for 
decades. And those that are still alive receive a monthly 
regular stipend from the Government of Korea. So I think that 
if some of the goodwill in southern Korea could kind of work 
its way up to the North, that would be a positive statement.
    Thank you, Mr. Chair, for calling this very important 
meeting--hearing.
    Mr. Smith. Thank you, Mr. Payne.
    Just to conclude, I would like to ask unanimous consent 
that the testimony of Kim Seong Min, Director of Free North 
Korea Radio, be made part of the record. Without objection, so 
ordered. And I would ask that all members have 5 legislative 
days to revise and extend remarks.
    And I would just make one comment with regards to a related 
issue. I would like to comment on recent reports of the 
continued deportation of Chinese Falun Gong practitioners from 
South Korea to China. As is well known, the Pyongyang are 
brutally persecuted in China along with numerous other groups 
who attempt to exercise their internationally recognized human 
rights of freedom of thought, conscience, and religion. So I 
join my voice with that of other Members of Congress urging 
South Korea to recognize Falun Gong practitioners as refugees 
and not forcibly return them to China where they will certainly 
face persecution.
    South Korea should also find an appropriate means within 
the South Korean legal system and the International Conventions 
on Torture and Refugees that it has ratified to permit these 
Falun Gong practitioners to remain in South Korea.
    I would note that on Thursday the subcommittee will hear 
testimony on--it will be the 30th hearing on human rights 
abuses in China. It is entitled ``China's One-Child Policy: The 
Government's Massive Crime Against Women and Unborn Babies.'' 
And I mention this, especially in light of Suzanne Scholte and 
others. There is a nexus between the one-child-per-couple 
policy. There is a dearth of females in the PRC. Estimates 
range to in excess of 100 million missing girls in China, so 
that when North Korean women make their way over the border, 
the traffickers are waiting to sell them into modern-day 
slavery and to sex trafficking. And China has not only not 
lifted a finger to stop it, they have enabled it. And it is 
attributable in part, maybe large part, to the one-child-per-
couple policy.
    We will hear from two victims of forced abortion who will 
tell their story. Chai Ling, the great Tiananmen Square 
activist who founded All Girls Allowed; Reggie Littejohn and 
Valerie Hudson who will speak about the military implications 
of the one-child-per-couple policy.
    I do want to thank this very, very effective group of 
witnesses for shedding light on the egregious human rights 
abuses of Kim Jong Il. And thank you for bearing witness to the 
truth.
    We need to do much more than we have done. That goes for 
our subcommittee, the Congress, the executive branch and the 
free world. And again, I want to thank all of our witnesses, 
especially our two women who have made their way to the U.S., 
come a long distance, suffered, lost loved ones for speaking 
truth to a very totalitarian power.
    I would like to give the last word if any of our witnesses 
would like to say anything in conclusion.
    Ms. Scholte. I was just going to announce that we are 
having at noon on Thursday, September 22nd, a protest. We are 
calling on people, wherever you are in the world, to go to the 
Chinese Embassy at noon to protest the repatriation of North 
Korean refugees. And we have petitions that people are 
delivering. And so far we have 25 cities and 13 countries that 
are participating. So I just wanted to mention that.
    Mr. Scarlatoiu. Mr. Chairman, I would like to tell you that 
in addition to one report that I have mentioned, that we have 
been working on on the political prisoner camps in North Korea, 
we are also working on a report on the circulation of 
information inside North Korea, and we will be happy to share 
these reports--as soon as they are published--with the 
subcommittee.
    Mr. Smith. And we will disseminate it widely among the 
Members of Congress, so thank you. Thank you. The hearing is 
adjourned and thank you very much.
    [Whereupon, at 5:19 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


              <F-dash>\<Hoarfrost><acctof><careof>t<star> 
                     <F-dash><func.-of><Register>\

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
   chairman, Subcommittee on Africa, Global Health, and Human Rights

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
